Report No. D-2011-072          June 15, 2011




        Previously Identified Deficiencies
              Not Corrected in the
General Fund Enterprise Business System Program
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASA (AL&T)            Assistant Secretary of the Army (Acquisition, Logistics, and
                         Technology)
ASA (FM&C)            Assistant Secretary of the Army (Financial Management and
                         Comptroller)
ATEC                  U.S. Army Test and Evaluation Command
BPA                   Blanket Purchase Agreement
CARD                  Cost Analysis Requirements Description
DCAA                  Defense Contract Audit Agency
DFAS                  Defense Finance and Accounting Service
EA                    Economic Analysis
ERP                   Enterprise Resource Planning
ESI                   Enterprise Software Initiative
GFEBS                 General Fund Enterprise Business System
IT                    Information Technology
OMB                   Office of Management and Budget
OSD (OT&E)            Office of the Secretary of Defense (Operational Test and
                         Evaluation)
USD (AT&L)            Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
PEO EIS               Program Executive Office Enterprise Information Systems
PMO                   Program Management Office
RDT&E                 Research, Development, Test, and Evaluation
USD (C)/CFO           Under Secretary of Defense (Comptroller)/Chief Financial Officer
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DR IVE
                            ARLINGTON, VIRGINIA 22202-4704



                                                                             June 15,20 11

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (ACQUISITION,
                  TEC HNOLOGY, AND LOGISTICS)
               UNDER SECRETARY OF DEFENSE
                  (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               DEPUTY CHIEF MANAGEMENT OFFICER
               DIRECTOR, D EFENSE FINANCE AND ACCOUNTING
                  SERVICE
               AU DITOR GENERAL, DEPARTMENT OF T HE ARMY

SUBJECT: Prev io usly Ide ntified Deficienci es Not Corrected in the G eneral Fund
         Enterprise Bus iness System Program (Report No. D-20 11-072)

We are providin g this report for review and comment. The Army is develo ping a
fin anc ial management system to improve the preparation and accuracy of General Fund
fin anc ial statements. Know n as the General Fund Enterprise Bus iness System (GFEB S),
thi s system has an estimated life-cycle cost of $2.4 billion. Although DoD and the A rmy
have implemented 9 of the 16 recommendations made in our prior GFEB S rep01t, actio ns
are needed to implement the 7 remaining recommendations on program planning,
acquis ition, and justification deficiencies. We considered management comments on a
draft of thi s report when preparing the final report.

DoD Directive 7650.3 requires that a ll recommendations be resolved promptly. We
request that the Under Secretary of D efense for Acquis ition, Technology, and Logistics
provide comments on Recommendations 1, 2, and 3. Also, we req uest the Under
Secretary ofDefense (Comptroller)/Chieffinancial Office r provide add itio na l comments
on Recommendation 1. We should receive yo ur comme nts by J ul y15, 201 1.

If poss ible, send a .pdf file containing yo ur comments to audfmr@dodig.mil. Copies of
your comments must have the actual s ignature of the authori z ing officia l for your
organization . We are unable to accept the /S igned/ symbol in p lace of the actual
s ignature . If you arrange to send classified comments e lectronically, yo u must send them
over the SECRET Internet Protocol Ro uter Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct q uestions to me at
(703) 601 -5868.


                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Financ ial Management and Reporting
Report No. D-2011-072 (Project No. D2009-D000FL-0217.000)                       June 15, 2011


               Results in Brief: Previously Identified
               Deficiencies Not Corrected in the General
               Fund Enterprise Business System Program
                                                         program remained at high risk of incurring
What We Did                                              additional schedule delays, exceeding planned
We assessed whether DoD and Army                         costs, and not meeting program objectives.
management actions were sufficient to correct
the program planning, acquisition, and                   What We Recommend
justification deficiencies identified in DoD             The USD (C)/CFO and the Deputy Chief
Inspector General Report No. D2008-041,                  Management Officer should review the Army’s
“Management of the General Fund Enterprise               Enterprise Resource Planning strategy,
Business System,” January 14, 2008. The                  including any investment in the further
General Fund Enterprise Business System                  deployment of GFEBS. The Deputy Chief
(GFEBS) is a financial management system the             Management Officer should also not approve
Army is developing to obtain an unqualified              the deployment of GFEBS to additional users
audit opinion on its General Fund financial              until the Army completes our recommendations
statements and improve accuracy of financial             and corrects the deficiencies identified by the
information.                                             U.S. Army Test and Evaluation Command.

What We Found                                            The Army should ensure a detailed data
Management actions were insufficient for                 conversion plan for the GFEBS program is
correcting GFEBS program planning,                       prepared. In addition, the Army should
acquisition, and justification deficiencies              implement procedures to ensure that economic
previously identified. The Army estimates it             justification information is complete and
will spend $2.4 billion over the GFEBS life              supported. The GFEBS Program Manager
cycle; however, it still has not identified all of       should develop complete and supported
the requirements and costs associated with the           information for Army’s use in preparing budget
project. In addition, the DoD and Army did not           and cost estimates and for managing the GFEBS
implement 7 of the 16 recommendations we                 program.
made in our prior report. Four
recommendations remained open because Army               Management Comments and
oversight was not sufficient to ensure the Army          Our Response
prepared a detailed data conversion plan or an           Management comments were responsive for
adequate economic justification for the GFEBS            five of eight recommendations. The
program. Three recommendations remained                  USD (C)/CFO comments were not responsive
open because the Under Secretary of Defense              for Recommendation 1. We request that the
for Acquisition, Technology, and Logistics               USD (C)/CFO provide comments on the final
(USD [AT&L]) and Under Secretary of Defense              report. In addition, the USD (AT&L) did not
(Comptroller)/Chief Financial Officer (USD               comment on the draft of this report. Please see
[C]/CFO) did not take action to implement the            the recommendations table on the back of this
recommended improvements to the acquisition              page.
process for system integration services. As a
result of the open recommendations, the GFEBS


                                                     i
Report No. D-2011-072 (Project No. D2009-D000FL-0217.000)             June 15, 2011

Recommendations Table

         Management                     Recommendations           No Additional
                                       Requiring Comment        Comments Required
Under Secretary of Defense         1, 2, 3
(Acquisition, Technology, and
Logistics)
Under Secretary of Defense         1                        4
(Comptroller)/Chief Financial
Officer
Deputy Chief Management                                     4, 5
Officer
Assistant Secretary of the Army                             7
(Acquisition, Logistics, and
Technology)
Assistant Secretary of the Army                             6
(Financial Management and
Comptroller)
General Fund Enterprise Business                            8
System Program Manager

Please provide comments by July 15, 2011.




                                            ii
Table of Contents

Introduction                                                                  1

       Objective                                                              1
       Background                                                             1
       Internal Controls Over the GFEBS Economic Justification                3

Finding. The DoD and Army Did Not Adequately Implement All Prior
Recommendations                                                               4

Prior Report Recommendations on Requirements and Economic Justification
Deficiencies Not Implemented                                                  4
       Lack of Detailed Data Conversion Plan                                  5
       ASA (AL&T) Did Not Develop and Implement Economic Justification
       Procedures                                                             6
       Incomplete and Unsupported Cost Analysis Requirements Description      7
       Incomplete and Unsupported Economic Analysis                           8
       Inadequate Army Oversight                                              9
       GFEBS Schedule Delays and Potential Cost Overruns                     10

Prior Report Recommendations on Acquisition Deficiencies Not Implemented     12

       DoD Could Not Ensure That They Used the Appropriate Contract Method   12

Prior Report Closed Recommendations                                          14

Conclusion                                                                   14

Management Comments on the Finding and Our Response                          16

Recommendations, Management Comments, and Our Response                       17

Appendices
     A. Scope and Methodology                                                23
           Prior Coverage                                                    23
     B. Recommendation Status                                                25

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer        28
     Deputy Chief Management Officer                                         30
     Department of the Army                                                  32
Introduction
Objective
Our objective was to determine whether management took action to correct the
deficiencies addressed in the DoD Inspector General Report No. D2008-041,
“Management of the General Fund Enterprise Business System,” January 14, 2008.
Specifically, we followed up on management actions to correct the program planning,
acquisition, and justification deficiencies addressed in the report. See Appendix A for a
discussion of the scope and methodology and for prior coverage related to the objective.

Background
Federal Financial Reporting Requirements
The Chief Financial Officers Act of 1990 requires that auditable financial statements be
prepared annually. It also guides the improvement in financial management and internal
controls to help assure that the Government has reliable financial information and to deter
fraud, waste, and abuse of Government resources. The Federal Financial Management
Improvement Act of 1996 requires agencies to implement and maintain financial
management systems that are in substantial compliance with:

   •   Federal financial management system requirements,

   •   Federal accounting standards, and

   •   U.S. Government Standard General Ledger at the transaction level.

The FY 2010 National Defense Authorization Act requires DoD to develop a plan to
ensure that the DoD financial statements “are validated as ready for audit by not later
than September 30, 2017.”

Acquisition Guidance
DoD Directive 5000.01, “The Defense Acquisition System,” May 12, 2003 (certified
current as of November 20, 2007), provides management principles and mandatory
procedures for managing DoD acquisition programs. The Defense Acquisition System is
a management process designed to provide effective, affordable, and timely systems to
users. DoD Instruction 5000.02, “Operation of the Defense Acquisition System,”
December 8, 2008, provides “a simplified and flexible management framework for
translating capability needs and technology opportunities, based on approved capability
needs, into stable, affordable, and well-managed acquisition programs.” Although
optional, the Defense Acquisition Guidebook complements these policies by providing the
acquisition workforce with best practices. The Federal Acquisition Regulation provides
rules and guidance on acquisition contracts by Federal agencies.


                                             1
Army Financial Reporting
The FY 2009 Army General Fund Financial Statements reported assets of $338.8 billion,
liabilities of $70.1 billion, and budgetary resources of $320.5 billion. The Defense
Finance and Accounting Service (DFAS) Indianapolis began preparing Army financial
statements in 1991 by compiling financial information from Army and DFAS sources.
Auditors have issued disclaimers of opinion on the Army General Fund financial
statements each year, including FY 2009, because the lack of an integrated, transaction
driven, financial management system prevents the Army from preparing auditable
financial statements. Therefore, the Army needs to implement a modern financial
capability to streamline the Army’s current portfolio of overlapping and redundant
finance and accounting systems.

General Fund Enterprise Business System
The General Fund Enterprise Business System (GFEBS) is a financial management
system the Army is developing so that it can obtain unqualified audit opinion on its
General Fund financial statements and improve accuracy of financial information. The
Army developed the GFEBS program to meet an Office of the Secretary of Defense goal
for the Military Services to comply with the Chief Financial Officers Act and the Federal
Financial Management Improvement Act of 1996.

The Army’s primary program objectives for developing GFEBS are to:

    •   improve financial performance,
    •   standardize business processes,
    •   ensure that capability exists to meet the future financial management needs, and
    •   provide Army decision makers with relevant, reliable, and timely financial
        information.

The GFEBS program included contracts for system integration, awarded on June 28,
2005, and for program management support services, awarded on April 25, 2005. The
system integration contract, whose period of performance consists of one base year with
nine option years, is estimated to cost $636.7 million. The first program management
support services contract, which had a five-year period of performance, was valued at
$60.5 million. As of August 2010, the Army disbursed $448.8 million for these
contracts. The Army awarded a second program management support services contract
in June 2010, which is currently valued at $11.2 million. The life-cycle cost estimate for
GFEBS, which includes anticipated costs for the initial system investment, system
operation and support, and existing systems phase-out, is $2.4 billion. The Army
awarded the system integration contract as part of the DoD Enterprise Software
Initiative (ESI). The ESI, an effort to standardize the acquisition process for commercial
off-the-shelf 1 software and associated system integration services, established blanket


1
 “Commercial off-the-shelf” refers to a previously developed item used for governmental or
nongovernmental purposes by the public, nongovernmental entities, or a Federal agency, state, or local
government.

                                                    2
purchase agreements (BPAs) with five vendors for system integration services. A BPA is
a simplified method of filling anticipated repetitive needs for commercial supplies or
services by establishing “charge accounts” with qualified vendors.

DoD Inspector General Report No. D-2008-041
DoD Inspector General Report No. D-2008-041, “Management of the General Fund
Enterprise Business System,” January 14, 2008, reported that the Army did not have
adequate internal controls for management of GFEBS. The report contained
16 recommendations to address three major deficiencies in the planning and development
of GFEBS.

   •   The Army did not effectively plan the acquisition of the GFEBS system
       integration services. The Army’s planning did not adequately define program
       requirements for potential bidders. Specifically, the Army did not sufficiently
       describe the resource requirements for system interfaces or adequately develop
       data conversion processes.

   •   The Army inappropriately used a BPA to contract for services to design, develop,
       integrate, and implement GFEBS. The Army used this improper contracting
       method because the Office of the Assistant Secretary of Defense for Networks
       and Information Integration/Chief Information Officer required the use of the
       BPA for new Enterprise Resource Planning (ERP) implementations.

   •   In addition, the Army prepared an unrealistic economic analysis to justify the
       GFEBS program. Specifically, the Army used unsupported and incomplete life-
       cycle cost estimates to determine the $1.4 billion in cost savings, and the Army
       used an inappropriate methodology to determine the estimated $3.9 billion in
       benefits for implementing GFEBS.

See Appendix B for a list of the recommendations and their current status.

Internal Controls Over the GFEBS Economic
Justification
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness in management’s processes for economically justifying the GFEBS
program. Army oversight was not sufficient to ensure the GFEBS economic justification
was complete and supported. Implementing the recommendations contained in this
report should correct the internal control weakness we identified, and will improve
management’s ability to defend priorities and resource allocations for complex ERP
system implementations. We will provide a copy of the report to the senior official
responsible for internal controls.


                                            3
Finding. The DoD and Army Did Not
Adequately Implement All Prior
Recommendations
Management actions were insufficient for correcting GFEBS program planning,
acquisition, and justification deficiencies previously identified. The Army estimates it
will spend $2.4 billion over the GFEBS life cycle; however, it still has not identified all
of the requirements and costs associated with the project. The DoD and Army did not
implement 7 of the 16 recommendations we made in our prior report. Specifically:

   •   Army did not implement four recommendations related to GFEBS requirements
       and economic justification and

   •   DoD did not implement three recommendations related to the acquisition of
       system integration services.

The four requirements and economic justification recommendations remained open
because Assistant Secretary of the Army (Financial Management and Comptroller)
(ASA [FM&C]) and Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) (ASA [AL&T]) oversight was not sufficient to ensure the Army prepared a
detailed data conversion plan or an adequate economic justification for the GFEBS
program. The three acquisition recommendations remained open because the Under
Secretary of Defense for Acquisition, Technology, and Logistics and Under Secretary of
Defense (Comptroller)/Chief Financial Officer did not take action to implement the
recommended improvements to the acquisition process. As a result of the open
recommendations, the GFEBS program remained at high risk of incurring additional
schedule delays, exceeding planned costs, and the Army risks implementing a system that
does not meet program objectives.

Prior Report Recommendations on Requirements and
Economic Justification Deficiencies Not Implemented
The Army did not implement four of the recommendations from the prior audit report.
Although the Army took action to correct the requirements and cost estimate deficiencies
identified in the previous report, improvements were still needed in the following areas:

   •   the ASA (FM&C) did not provide a detailed data conversion plan (See
       Appendix B, item 4),

   •   the ASA (AL&T) did not develop and implement procedures to ensure that
       information provided to decision makers concerning the economic justification of
       system acquisitions is complete and supported in accordance with the Defense
       Acquisition Guidebook (See Appendix B, item 12),



                                              4
    •    ASA (AL&T) did not ensure that the GFEBS Program Management Office
         (PMO) developed a complete and supported Cost Analysis Requirements
         Description (CARD) (See Appendix B, item 13), and

    •    ASA (AL&T) did not ensure that the GFEBS PMO developed a complete and
         supported Economic Analysis (EA) (See Appendix B, item 14).

This occurred because oversight was not sufficient to ensure that the Army prepared a
detailed data conversion plan or an adequate economic justification for the GFEBS
program.

Lack of Detailed Data Conversion Plan
ASA (FM&C) did not provide a detailed data conversion plan. In response to the
previous report, the ASA (FM&C) agreed to prepare a detailed data conversion plan
                                      within 30 days of completing a blueprint of GFEBS.
   Inadequate planning for data       Data conversion is the modification of existing data
     conversion processes may         to enable it to operate with similar capabilities in a
          lead to long-term           different environment. It is a significant part of the
      repercussions, including        financial system implementation in terms of
      failure to meet program         workload, complexity, risk, and cost and is one of
             objectives...            the most frequently underestimated tasks.
                                      Inadequate planning for data conversion processes
may lead to long-term repercussions, including failure to meet program objectives, such
as producing auditable financial statements as required by the Chief Financial Officers
Act of 1990.

In response to our requests for the plan, ASA (FM&C) personnel stated that the GFEBS
PMO should be able to provide the requested information. The GFEBS PMO provided a
data conversion guide that discussed the GFEBS program’s strategy for converting
Master Data 2 from Army systems. However, the guide did not address data conversion
for at least 49 non-Army systems that process Army data. For example, the guide did not
discuss the Computerized Accounts Payable System, a DFAS system that automates
vendor pay processes and interfaces with DoD standard procurement, disbursing and
accounting systems. By not addressing the non-Army systems, the conversion guide did
not provide the detail needed to address all data to be converted. In addition, the guide
did not mention how the GFEBS PMO plans to handle historical transactional data, other
than it will not convert it. This strategy did not address appropriations with an indefinite
or multi-year period of availability. For example, the typical obligation life for:

    •    Research, Development, Test, and Evaluation (RDT&E) appropriations is 2 years;




2
  Master data is data that does not change regularly over a period of time and will be used in its same form
continuously and is required to support transaction processing. Examples of master data include customer
and vendor records.

                                                     5
    •    procurement appropriations is 3 years;

    •    military construction appropriations is 5 years; and

    •    no-year appropriations have an indefinite time period.

Since multi-year appropriations are open for obligation adjustment for five years after
expiration, accounting data can remain in legacy systems for several years after the Army
implements GFEBS. No-year appropriations never close and must be migrated because
they may never “brownout.” 3 Without converting historical transactional data for these
types of appropriations, the Army could potentially be using GFEBS and the legacy
systems, concurrently, for many years after GFEBS implementation. For example,
legacy systems provide non-standard information to the Defense Departmental Reporting
System-Budgetary for the production of Army management reports and financial
statements. This legacy system information is not in general ledger format. Even if the
Army fully deploys GFEBS and it is operational, the legacy information will impair the
Army’s ability to have auditable financial statements. The Army should have a detailed
plan for the data conversion processes required for GFEBS implementation and address
data migration from “brownout” systems.

ASA (AL&T) Did Not Develop and Implement Economic
Justification Procedures
ASA (AL&T) did not develop and implement procedures to ensure that information
concerning the economic justification of system acquisitions was complete and supported
in accordance with the Defense Acquisition Guidebook. ASA (AL&T) agreed to develop
and implement procedures in response to our prior report. However, when we requested
documentation of the procedures, ASA (AL&T) personnel stated that additional
procedures were unnecessary because all Army organizations are required to comply with
the following Army guidance:

    •    Department of the Army, “Cost Analysis Manual,” May 2002;

    •    Department of the Army, “Economic Analysis Manual,” February 2001; and

    •    Army Regulation 11-18, “The Cost and Economic Analysis Program,”
         January 31, 1995.

ASA (AL&T) stated that since the guidance already existed, the problem was not the lack
of policy, but rather the need for better implementation by the GFEBS PMO, which is
part of ASA (AL&T) and must follow Army guidance. The Defense Acquisition
Guidebook provides the acquisition workforce with best practices that each program
should tailor to its needs. We made the original recommendation so that ASA (AL&T)


3
  Brownout refers to the practice of allowing historical transactional data to remain in the existing legacy
system where initially recorded.

                                                      6
would ensure that the Army used these best practices when documenting the economic
justification of system acquisitions. Specifically, the Defense Acquisition Guidebook
states that the CARD should stand alone as a readable document, make liberal use of
references to the source documents, and make source documents readily available or
provide them as an appendix to the CARD. It also states that acquisition personnel
should formally document a complete cost estimate, which serves as an audit trail of
source data, methods, and results. Program Executive Office Enterprise Information
Systems 4 (PEO EIS) personnel stated that ASA (AL&T) personnel participated in the
preparation of the EA and CARD. However, ASA (AL&T) participation in the
formulation of the EA and CARD did not satisfy the recommendation that ASA (AL&T)
provide procedures to ensure information provided to decision makers concerning the
economic justification of system acquisitions was complete and supported in accordance
with the Defense Acquisition Guidebook.


Incomplete and Unsupported Cost Analysis Requirements
Description
The GFEBS PMO did not develop a complete and supported CARD. In response to the
prior audit, ASA (AL&T) agreed to update the CARD and ensure it included all source
documents and all system requirements (interfaces, upgrades, and operations and
support). Although the PMO updated the CARD in September 2009 for the GFEBS Full
Deployment Decision Review, 5 it was incomplete and unsupported because the PMO did
not fully identify requirements for the systems impacted by GFEBS. According to
Deputy Chief Management Office personnel, as of February 2011, the Milestone
Decision Authority had not granted Full Deployment Decision approval to the GFEBS
program. Deputy Chief Management Officer personnel stated that the delay occurred
because the Milestone Decision Authority requested additional time to assess the results
of the Initial Operational Test and Evaluation of GFEBS.

The number of planned GFEBS system replacements and interfaces fluctuated from
128 in May 2006 to 165 in January 2008 and down to 141 in September 2009. The
number of systems that GFEBS will replace or interface with decreased by 24 systems
from the January 2008 CARD to the September 2009 CARD. The table provides more
detail on the system decrease.




4
  Program Executive Office Enterprise Information Systems develops, acquires, and deploys tactical and
management information technology systems and products.
5
  The Full Deployment Decision Review is performed by the Milestone Decision Authority to determine
whether or not a system can deploy for operational use.


                                                   7
                       Table. Analysis of Systems Impacted by GFEBS
               Systems       January 2008      September 2009    Difference
           Replaced by
                                  78                 85               7
           GFEBS
           Interfaced with
                                  87                 56              -31
           GFEBS
             Total               165                141              -24

PEO EIS personnel stated that the number of systems that GFEBS will replace or
interface with would continue to change as the Army designs, implements, and tests
GFEBS. DoD 5000.4-M, “Cost Analysis Guidance and Procedures,” December 1992,
requires a section to summarize changes from the previous CARD. This discussion
should address changes in system design and program schedule, as well as in program
direction. The September 2009 CARD did not describe the difference of 24 systems in
sufficient detail to understand the reasons for the change. In addition, the September
2009 CARD did not comply with the DoD 5000.4-M requirement to provide all the
interfaces, upgrades, and operations and support requirements for all systems impacted
by GFEBS. For example, the CARD did not include the number of users for each
system, transaction volume of the systems, sites where the systems were used, or labor
requirements for system maintenance. The CARD also did not describe resources
necessary for data migration. Although the GFEBS PMO eventually provided a
description of the change in the number of systems, 6 this information was not included in
the September 2009 CARD. The CARD is a key document that supports the EA; the
Army needs detailed requirements in the CARD to prepare an accurate life-cycle cost
estimate for the EA.

Incomplete and Unsupported Economic Analysis
                                     The GFEBS PMO did not develop a complete and
   The GFEBS PMO updated the         supported EA. In response to the prior audit,
    EA in November 2009 for the      ASA (AL&T) agreed to update the EA and ensure
      GFEBS Full Deployment          it included all source documents, relevant costs,
    Decision Review. However,        and system requirements. The GFEBS PMO
         the updated EA was          updated the EA in November 2009 for the GFEBS
    incomplete and unsupported       Full Deployment Decision Review. However, the
    because it did not include the   updated EA was incomplete and unsupported
   costs related to data migration   because it did not include the costs related to data
   or for interfacing systems with   migration or for interfacing systems with GFEBS.
               GFEBS.                According to Deputy Chief Management Office
                                     personnel, as of February 2011, the Milestone
Decision Authority had not granted Full Deployment Decision approval to the GFEBS
program. Deputy Chief Management Officer personnel stated that the delay occurred
because the Milestone Decision Authority requested additional time to assess the results


6
    We did not perform a detailed analysis of the description to determine if it was adequate.

                                                        8
of the Initial Operational Test and Evaluation of GFEBS. The purpose of the EA is to
provide decision makers insight into economic factors affecting the program objectives.
Without supported information in the EA, the Army does not have reliable information to
support the effective allocation and management of resources, and to justify budget
estimates.

Data migration and brownout costs were not transparent and properly allocated to
GFEBS implementation in the EA. When we inquired about data migration and
brownout costs, PEO EIS personnel claimed that brownout costs were included in the
costs of operating Status Quo 7 systems. Brownout costs should not be included in Status
Quo costs because they do not occur until data is migrated into a new system. The EA
also did not specifically identify costs for migrating data to GFEBS. Data migration and
brownout costs should be a separate line item cost under the GFEBS implementation.
We could not identify these costs as they were not broken out, and PEO EIS personnel
could not provide us the information when requested. For data migration, the EA did not
include a plan to consider appropriations with long budget lives. As a result, data
migration costs were unknown, brownout costs were incorrectly categorized as Status
Quo costs, and the true cost for GFEBS implementation is potentially understated.

The Army did not provide sufficient detail in the EA on system interfacing costs for the
55 systems 8 that require a GFEBS interface. DoD Instruction 7041.3, “Economic
Analysis for Decisionmaking,” November 7, 1995, requires that the preparer document
the results of the EA, including all calculations and sources of data—down to the most
basic inputs—to provide an auditable and stand-alone document. GFEBS PMO
personnel claimed that business processes, which may encompass more than one legacy
system, drive ERPs. As a result, the Army grouped costs and other major key system
characteristics by business process instead of by legacy system. However, the November
2009 EA did not provide interface costs by business process or by system. The GFEBS
PMO eventually provided information on interface costs for the systems. 9 The Army did
not prepare an adequate economic justification for its decision to invest more than
$708.4 million (current projected contract cost) in the GFEBS program.

Inadequate Army Oversight
ASA (FM&C) and ASA (AL&T) oversight were not sufficient to ensure the Army
prepared a detailed data conversion plan, a complete and supported CARD, and a
complete and supported EA for the GFEBS program. Without supported cost estimates,
the Army did not have reliable information needed to defend priorities and resource




7
  “Status Quo” is the term used in the Army’s EA to refer to the current method of performing general fund
accounting functions using existing systems.
8
  Although the CARD identified 56 systems, when the EA was finalized the requirements had changed to
55 systems.
9
  We did not determine whether the provided costs were reasonable or complete.

                                                    9
allocations. The lack of reliable information posed a significant risk that the Army will
not be able to demonstrate adequately whether the program is cost-effective until it has
expended a significant portion of the $2.4 billion life cycle cost estimate on system
design, development, integration, and implementation. In our prior report, we determined
                                       that the GFEBS program needed management
          The lack of reliable         oversight from the highest levels and made
         information posed a           recommendations for the Army to provide this
    significant risk that the Army     oversight. In addition, our prior report included
   will not be able to demonstrate     detailed information on what the Army needed to
        adequately whether the         do to correct the identified planning and economic
   program is cost-effective until     justification deficiencies.
    it has expended a significant
    portion of the $2.4 billion life   ASA (FM&C) is responsible for providing timely,
    cycle cost estimate on system      accurate, and reliable financial information to
         design, development,          enable leaders and managers to incorporate cost
           integration, and            considerations into their decision-making. Since
           implementation.             the Army is implementing GFEBS to obtain a clean
                                       audit opinion and improve the accuracy of financial
                                       information, ASA (FM&C) is a major stakeholder
in this program. ASA (FM&C) should have ensured that a detailed data conversion plan
for GFEBS was prepared, as it agreed to in the prior report.

ASA (AL&T) is responsible for executing the acquisition function and the acquisition
management system of the Army. ASA (AL&T) should have implemented procedures to
ensure that information concerning the economic justification of system acquisitions was
complete and supported in accordance with the Defense Acquisition Guidebook, as it
agreed to in the prior report. Because ASA (AL&T) did not implement these procedures,
the Army made GFEBS program decisions based on incomplete and unsupported
economic justification documents.

GFEBS Schedule Delays and Potential Cost Overruns
GFEBS has already incurred schedule delays and an increase in the total program cost.
The Army delayed the dates for GFEBS initial operational capability 10 and full
                                   operational capability. 11 The Army delayed the
  GFEBS has already incurred       proposed August 2007 date for initial operational
  schedule delays and an           capability by 3 years and 1 month to
  increase in the total program    September 2010 and the proposed December 2009
  cost.                            date for full operational capability by 2 years to
                                   December 2011. PEO EIS personnel stated that




10
   A system reaches initial operational capability when a unit scheduled to receive the system has received
it and has the ability to employ and maintain it.
11
   The FY 2010 National Defense Authorization Act replaced the term initial operational capability with
full deployment decision and the term full operational capability with full deployment.

                                                    10
they only delayed the initial operational capability date by 1 year and 10 months and the
full operational capability date by 5 months since the program’s Milestone B 12 in
November 2008. In addition, the GFEBS total program cost increased $53.2 million
from the August 2004 EA to the November 2009 EA update.

PEO EIS personnel stated that the Milestone Decision Authority delayed the GFEBS Full
Deployment Decision to assess the results of the U.S. Army Test and Evaluation
Command (ATEC) Initial Operational Test and Evaluation conducted July through
August 2009. ATEC, which is responsible for all Army developmental and operational
testing, concluded that GFEBS was operationally effective with limitations, not
operationally suitable, and not survivable. 13 ATEC personnel determined that GFEBS
users were unable to obtain reliable and timely information and had difficulty reliably
executing critical business processes.

Office of the Secretary of Defense (Operational Test and Evaluation) (OSD [OT&E])
personnel stated that the GFEBS PMO took action to correct many of the deficiencies
ATEC personnel identified and completed a plan to address remaining deficiencies. The
GFEBS PMO plan states that there are four key areas the program is working on to
improve effectiveness: unmatched disbursements, business intelligence, 14 training, and
help desk improvements. In December 2009, based on the GFEBS PMO plan,
OSD (OT&E) personnel recommended that the Army continue fielding the next phase of
GFEBS as planned. OSD (OT&E) personnel stated that the results of this fielding should
be assessed prior to continuing with the next phase of deployment. ATEC personnel
completed limited user testing in August 2010. Based on this testing, they concluded that
GFEBS is effective, suitable, and survivable with limitations; however, ATEC personnel
concluded that GFEBS still had issues remaining. For example, ATEC personnel found
that GFEBS was still having problems with business management data and report
generation. Deputy Chief Management Officer personnel stated that the Army is
currently authorized to field GFEBS to 20,000 users, and full deployment of the system
will not be approved until the Army corrects the identified problems. According to
Deputy Chief Management Officer personnel, the Army has deployed GFEBS to about
15,500 of the 79,000 potential users.

In addition, the Army risks implementing a system that does not meet program
objectives. Between June 2005, when the original contract was awarded, and the
September 2009 CARD update, the number of testing requirements grew from 314 to
634, an increase of 102 percent. Improperly defined or incomplete requirements can


12
   Milestone B occurs when the program is approved to enter the Engineering and Manufacturing
Development phase. Entry into the Engineering and Manufacturing Development phase represents formal
program initiation.
13
   Operational effectiveness is the overall ability of a system to accomplish its mission. Operational
suitability is the degree to which a system can be satisfactorily placed in use. Survivability is the ability of
a system to avoid or withstand manmade hostile environments without impairing its ability to accomplish
its mission.
14
   A study was conducted to look at the overall reporting approach as well as uncover additional
capabilities that would increase user productivity.

                                                       11
cause system failures, such as systems not meeting their costs, schedules, or performance
goals. Well-defined requirements provide the foundation for system evaluation and
testing. Inadequately defined requirements prevent an organization from implementing a
disciplined testing process to determine whether a system meets program objectives and
performance goals. Without well-defined requirements, an organization is taking a
significant risk that its testing efforts will not detect significant defects until after the
organization places the system into production.


Prior Report Recommendations on Acquisition
Deficiencies Not Implemented
DoD did not implement three of the recommendations related to the acquisition of system
integration services and the inappropriate use of the BPA. Specifically:

     •   Under Secretary of Defense for Acquisition, Technology, and Logistics
         (USD [AT&L]) did not establish policy concerning RDT&E funding that was
         consistent with sections 403 and 437, title 41, United States Code (See
         Appendix B, item 6). 15

     •   USD (AT&L) did not provide evidence that it screened new programs proposing
         use of the ESI BPA (See Appendix B, item 7).

     •   USD (AT&L) did not provide evidence of written commercial determinations to
         justify that items or services procured using General Services Administration
         blanket purchase agreements met the Federal Acquisition Regulation 2.101
         definition of a commercial item for acquisitions valued over $1 million (See
         Appendix B, item 8).

We made these recommendations to ensure that DoD used the appropriate contract
method for acquiring system integration services. USD (AT&L) and the Under Secretary
of Defense (Comptroller)/Chief Financial Officer (USD [C]/CFO) did not provide
evidence of actions taken in response to the prior report. Consequently, these
recommendations remain open.

DoD Could Not Ensure That They Used the Appropriate Contract
Method
USD (AT&L) did not establish policy concerning RDT&E funding that was consistent
with sections 403 and 437, title 41, United States Code. In its comments to our final
report, USD (AT&L) stated that USD (C)/CFO, not USD (AT&L), was responsible for
ensuring that the use of RDT&E funding was consistent with financial management
statutory and regulatory requirements. However, USD (AT&L) stated if the


15
   41 U.S.C. 403 defines a commercial item as a non-developmental item. 41 U.S.C. 437 allows contracts
or task orders that do not exceed $25 million to be treated as a contract for the procurement of commercial
items, if specific guidelines are met.

                                                    12
USD (C)/CFO determined that DoD needed policy, it would assist to ensure the policy
was consistent with statutory and regulatory requirements. USD (C)/CFO personnel have
not provided evidence that they established the policy or agreed that it is their
responsibility. USD (AT&L) and USD (C)/CFO should coordinate to develop evidence
that RDT&E funding policy is consistent with sections 403 and 437, title 41, United
States Code.

USD (AT&L) did not provide evidence that it screened new programs proposing use of a
BPA. In its comments to our final report, USD (AT&L) disagreed with our
recommendation to discontinue use of blanket purchase agreements, such as the
Enterprise Software Initiative, as the contract vehicle for systems integration contracts or
task orders exceeding $25 million that require RDT&E funding. Rather than discontinue
the use of the ESI BPA, USD (AT&L) proposed the careful screening of programs
contemplating the use of the ESI BPA. USD (AT&L) personnel stated that this screening
would ensure that programs have sufficiently defined requirements, used the appropriate
type of funding, and used a contract that reflects the approved approach. However, USD
(AT&L) personnel have not provided evidence that they established or used their
proposed screening process.

USD (AT&L) did not provide the written commercial determinations to justify that items
or services procured using General Services Administration blanket purchase agreements
met the Federal Acquisition Regulation 2.101 definition of a commercial item for
acquisitions valued over $1 million. In comments to our draft report, USD (AT&L)
personnel stated that an existing policy required contracting officers to provide written
commercial determinations. We requested that USD (AT&L) provide a description on
how it would implement the requirements in the existing policy for BPAs in their
                                       comments to the final report. Although
    However since USD (AT&L)           USD (AT&L) personnel responded to the final
     and USD (C)/CFO did not           report, they still did not explain how the existing
           implement these             policy requirements will be implemented for BPAs;
       recommendations, DoD            in addition, they did not provide an explanation
    cannot ensure that they used       during this audit.
      the appropriate contract
     method for acquiring new          The use of appropriate contracting would help
    system integration services.       protect the Government against overpricing.
                                       However since USD (AT&L) and USD (C)/CFO
did not implement these recommendations, DoD cannot ensure that they used the
appropriate contract method for acquiring new system integration services.
USD (AT&L) and USD (C)/CFO should implement the recommendations from the prior
report.




                                            13
Prior Report Closed Recommendations
Management completed action for nine recommendations from the prior audit report.
Specifically:

   •   the Assistant Secretary of Defense for Networks and Information
       Integration/Chief Information Officer included GFEBS on the Federal
       Information Technology (IT) Dashboard (See Appendix B, item 1);

   •   ASA (FM&C) ensured that system owners provided information concerning
       system functionality necessary to integrate GFEBS (See Appendix B, item 2);

   •   ASA (FM&C) identified subject matter experts for all potential system interfaces
       and committed personnel for the duration of the project (See Appendix B, item 3);

   •   ASA (FM&C) evaluated and adjusted timeframes for the GFEBS program (See
       Appendix B, item 5);

   •   USD (C)/CFO did not provide obligation authority for new large and complex
       system integrations under the Enterprise Software Initiative BPA (See
       Appendix B, item 9);

   •   the Director, PEO EIS, contacted the Defense Contract Audit Agency (DCAA)
       about auditing non-fixed priced contract line items (See Appendix B, item 10);

   •   USD (AT&L), USD (C)/CFO, and ASA (AL&T) made the decision to proceed
       with the GFEBS program based on an updated EA (See Appendix B, 11);

   •   ASA (AL&T) retained documentation of the USD (AT&L) review of the GFEBS
       program (See Appendix B, item 15); and

   •   the Director, DFAS, developed procedures to ensure that the economic
       justification of system acquisitions was complete and supported (See Appendix B,
       item 16).

Conclusion
As a result of the open recommendations, the GFEBS program remains at high risk of
incurring additional schedule delays and exceeding planned costs, and the Army risks
implementing a system that does not meet program objectives. Complete and accurate
program requirements are critical because GFEBS will interface with or replace at least
141 systems. With more than 79,000 users managing a $140 billion annual budget at
nearly 200 locations worldwide, GFEBS would be one of the world’s largest government
ERP systems.

Federal IT projects too often cost more than they should, take longer than necessary to
deploy, and deliver solutions that do not meet our business needs. Financial systems

                                            14
modernization projects in particular have consistently underperformed in terms of costs,
schedule, and performance. Large-scale modernization efforts undertaken by Federal
agencies are leading to complex project management requirements that are difficult to
manage. By the time the projects are finished, they are technologically obsolete or no
longer meet agency needs. To address these problems, OMB issued memorandum
M-10-26, "Immediate Review of Financial Systems IT Projects," on June 28, 2010. The
memorandum launched an IT project management reform effort. As part of this effort,
OMB is requiring that all CFO Act agencies immediately halt the issuance of new task
orders or new procurements for all financial system projects pending review and approval
from OMB. The memorandum provides guiding principles for the acquisition and
project management of financial systems. OMB plans to use these principles as its
criteria when reviewing current financial modernization projects. The guiding principles
are:
     • split projects into smaller, simpler segments with clear deliverables;

   •   focus on most critical business needs first; and

   •   provide ongoing, transparent project oversight.

Beginning in FY 2011, funding for financial system investments subject to the OMB
guidance will be apportioned consistent with the segmented approach. Throughout the
fiscal year, OMB will assess whether or not an investment should receive funding for the
next segment. An agency’s failure to complete a segment as planned may be a basis for
canceling the remaining investment. Additionally, inconsistent, incomplete, or inaccurate
data or documentation may be justification for redirecting funding. USD (C)/CFO
personnel stated that DoD is already following a segmented approach for funding IT
investments as part of the combined investment review board process.

On August 18, 2010, the Army met with the DoD Investment Review Board. The
Investment Review Board directed the Army to develop an ERP strategy for addressing
how the Army will integrate the functions currently performed by GFEBS and the other
Army ERPs. The Investment Review Board gave the Army until December 15, 2010, to
present a way forward. Army personnel stated that they presented their ERP strategy to
the Investment Review Board on January 14, 2011. The need for the Army to develop an
ERP strategy places GFEBS at high risk of not achieving the DoD goal of implementing
cost effective solutions. Therefore, the USD (C)/CFO and the Deputy Chief Management
Officer should review the Army’s ERP strategy, including any further deployment of
GFEBS.

GFEBS has already incurred schedule delays, and inadequately defined system
requirements increase the risk for additional schedule delays and exceeding planned
costs. In addition, the ATEC review determined that GFEBS users were unable to obtain
reliable and timely information and had difficulty reliably executing critical business
processes. The Army should ensure that ATEC has assessed the results of the most
recent fielding efforts and determined whether the remaining issues resulting from the
Initial Operational Test and Evaluation of GFEBS have been remedied prior to moving

                                            15
into the next phase. In addition, until the Army has implemented the requirements and
economic justification recommendations from our prior report, it should not deploy
GFEBS to additional users.

Management Comments on the Finding
The ASA (FM&C) stated that the Army believes the risks identified in this report are
manageable and do not materially impact the GFEBS program’s cost and schedule. She
stated that the GFEBS CARD and EA were prepared in accordance with guidance. In
addition, she indicated that the GFEBS program requirements have remained stable and
actually decreased from 1,755 to 1,490. The ASA (FM&C) stated that the CARD
included all development and maintenance requirements and other information needed to
develop an independent cost estimate. She indicated that increased testing requirements
had no impact on program requirements, and created negligible risk to program cost and
schedule. In addition, she stated that program cost is within all threshold limits and is
within two percent of the acquisition program baseline established in 2008. She also
stated that the November 2009 Economic Analysis was fully reviewed and approved by
required Army and Office of the Secretary of Defense entities. She indicated that the
Army Cost Position established a total program cost of $1.4 billion, of which
$651.7 million was investment and the remainder was for operations and support. The
ASA (FM&C) stated that stable requirements have enabled current execution to remain
well below threshold levels.

Our Response
In response to the prior audit, the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology) agreed to update the Cost Analysis Requirements Description to ensure
that all information used in the document was supported; to identify the interface,
upgrade, and operations and support requirements for all systems with financial
management relevance to GFEBS; and to update the Economic Analysis and ensure it
included all source documents, relevant costs, and system requirements. The Army did
not prepare the GFEBS Cost Analysis Requirements Description in accordance with the
Defense Acquisition Guidebook. Specifically, the GFEBS Program Management Office
did not fully identify requirements for the systems impacted by GFEBS. The
September 2009 Cost Analysis Requirements Description did not describe the difference
of 24 systems in sufficient detail to understand the reasons for the change. In addition,
the September 2009 Cost Analysis Requirements Description did not comply with the
requirement to provide all the interfaces, upgrades, and operations and support
requirements for all systems impacted by GFEBS. In addition, the updated Economic
Analysis did not include the costs related to data migration or for interfacing systems
with GFEBS. Specifically, data migration and brownout costs were not transparent and
properly allocated to GFEBS implementation in the Economic Analysis and the Army did
not provide sufficient detail on system interfacing costs for the 55 systems that require a
GFEBS interface. As discussed above, GFEBS has already incurred schedule delays.
Inadequately defined system requirements increase the risk for additional schedule delays
and exceeding planned costs. Without reliable and supported cost and benefit estimates,
the Army does not have the information needed to defend priorities and resource
allocations for GFEBS. The lack of reliable information poses a significant risk that the

                                            16
Army will not be able to demonstrate adequately the cost-effectiveness of the program
until it has expended a significant portion of the $2.4 billion life cycle cost estimate on
system design, development, integration, and implementation.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Under Secretary of Defense for Acquisition, Technology,
and Logistics and the Under Secretary of Defense (Comptroller)/Chief Financial
Officer coordinate to establish policy that is consistent with sections 403 and 437,
title 41, United States Code, that states if and under what conditions Research,
Development, Test, and Evaluation funding can be used for commercial items and
services.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Deputy Chief Financial Officer, Under Secretary of Defense (Comptroller)/Chief
Financial Officer, disagreed and stated that Volume 2A, Chapter 1 of the DoD Financial
Management Regulation describes the purposes for which Research, Development, Test,
and Evaluation funding can be used and specifies that commercial-off-the-shelf systems,
such as GFEBS, should be budgeted in Research, Development, Test, and Evaluation
funding. The Deputy Chief Financial Officer indicated that Research, Development,
Test, and Evaluation funding is appropriate to support the GFEBS acquisition based on
this policy.

Our Response
The Deputy Chief Financial Officer, Under Secretary of Defense (Comptroller)/Chief
Financial Officer comments are not responsive. A commercial item is defined as a
“nondevelopmental item” in 41 U.S.C. 403. Because design and development are
required for GFEBS, the acquisition is not commercial. Acquisitions that use Research,
Development, Test, and Evaluation funds because the effort is developmental do not fit
the U.S.C. definition of a commercial acquisition. Section 437, title 41, U.S.C., does
allow contracts or task orders that do not exceed $25 million to be treated as a contract
for the procurement of commercial items, if they meet specific guidelines. Any system
acquisition that requires a developmental effort cannot be considered a commercial
acquisition unless it meets the guidelines specified under section 437, title 41, U.S.C.
DoD Financial Management Regulation 7000.14, Volume 2A, Chapter 1 does not
address the guidelines specified under section 437, title 41, U.S.C. The Under
Secretary of Defense for Acquisition, Technology, and Logistics and the Under
Secretary of Defense (Comptroller)/Chief Financial Officer should provide clear and
concise policy on these issues that is in accordance with U.S.C. We request that the
Deputy Chief Financial Officer reconsider his position and provide comments on the
final report. The Under Secretary of Defense for Acquisition, Technology, and
Logistics did not comment on a draft of this report. We request that the Under
Secretary of Defense for Acquisition, Technology, and Logistics provide comments on
the final report.

                                             17
2. We recommend that the Under Secretary of Defense for Acquisition, Technology,
and Logistics discontinue use of blanket purchase agreements, such as the
Enterprise Software Initiative, as the contract vehicle for system integration
contracts or task orders exceeding $25 million that require Research, Development,
Test, and Evaluation funding.

Management Comments Required
The Under Secretary of Defense for Acquisition, Technology, and Logistics did not
comment on a draft of this report. We request that the Under Secretary of Defense for
Acquisition, Technology, and Logistics provide comments on the final report.

3. We recommend that the Under Secretary of Defense for Acquisition, Technology,
and Logistics provide a description of how the policy requiring contracting officers
to provide written commercial determinations was implemented for General
Services Administration blanket purchase agreements.

Management Comments Required
The Under Secretary of Defense for Acquisition, Technology, and Logistics did not
comment on a draft of this report. We request that the Under Secretary of Defense for
Acquisition, Technology, and Logistics provide comments on the final report.

4. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer and the Deputy Chief Management Officer use the Investment
Review Boards, the Milestone Decision Authority, and the Defense Business Systems
Management Committee to review the Army's Enterprise Resource Planning
strategy to determine its effect on the further deployment of the General Fund
Enterprise Business System.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Deputy Chief Financial Officer, Under Secretary of Defense (Comptroller)/Chief
Financial Officer, agreed and stated that as co-chair of the Combined Financial
Management/Weapon Systems Lifecycle Management/Material Supply and Services
Management Investment Review Board he reviews program related decisions, such as
requests for GFEBS funds certifications and deployments. The Deputy Chief Financial
Officer indicated that this investment review board is monitoring the Army’s Enterprise
Resource Planning strategy to inform decisions on further GFEBS deployment. The
Deputy Chief Financial Officer stated that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer is also a member of the Defense Business Systems
Management Committee that the Investment Review Boards report to as part of the tiered
governance process.




                                           18
Deputy Chief Management Officer Comments
The Deputy Chief Management Officer agreed, and stated that as the Milestone Decision
Authority, she uses the Investment Review Boards to review specific program related
decisions -- such as requests for GFEBS deployments -- as she holds integrated business
system discussions. These discussions include review of the Army’s Enterprise Resource
Planning strategy. The Deputy Chief Management Officer stated that the Investment
Review Boards report to the Defense Business Systems Management Committee, of
which she is a member.

Our Response
The Deputy Chief Financial Officer and Deputy Chief Management Officer comments
are responsive.

5. We recommend that the Deputy Chief Management Officer not approve the
deployment of the General Fund Enterprise Business System to any additional users
until the Army completes the recommendations contained in this report and
corrects the deficiencies identified by the U.S. Army Test and Evaluation Command.

Deputy Chief Management Officer Comments
The Deputy Chief Management Officer disagreed and stated that the material deficiencies
identified by the U.S. Army Test and Evaluation Command have been fully addressed.
She indicated that ongoing validation and verification is being conducted by the U.S.
Army Test and Evaluation Command and is proceeding in accordance with her guidance
through the Investment Review Board. As the Milestone Decision Authority, she has
determined that the business benefit of GFEBS is greater than reported program risks
based on additional information available for her review after this audit. The Deputy
Chief Management Officer stated that her staff closely monitors all program activities
with the Army and the GFEBS Program Office through the Investment Review Board.

Our Response
The Deputy Chief Management Officer comments are responsive. As a result of the open
recommendations, the GFEBS program remains at high risk of incurring additional
schedule delays and exceeding planned costs, and the Army risks implementing a system
that does not meet program objectives. The close monitoring of the GFEBS program by
the Deputy Chief Management Officer may help to lessen some of this risk. We are
currently performing an audit on GFEBS’ compliance with the U.S. Government
Standard General Ledger and the Standard Financial Information Structure. If we find
problems with the functionality of GFEBS, we will make a recommendation regarding
the further deployment of the system in that report. As such, no further action is required
in response to this report.

6. We recommend that the Assistant Secretary of the Army (Financial Management
and Comptroller) ensure that the General Fund Enterprise Business System
Program Management Office prepares a detailed data conversion plan and
addresses data migration from “brownout” systems.

                                            19
Army Comments
The Assistant Secretary of the Army (Financial Management and Comptroller) neither
agreed nor disagreed but stated that to ensure a full understanding of the GFEBS data
migration strategy, the PMO would prepare a concept of operations within 180 days from
April 6, 2011. Further, she indicated that the Army has significantly mitigated risks
associated with data conversions by not modifying the existing transactional data to make
it compatible with GFEBS. She stated the current cost estimates reflect this strategy by
including the continued operation of the legacy systems through September 30, 2016.
Finally, she indicated that it would be necessary to migrate other data, such as beginning
balances and master data.

Our Response
The Assistant Secretary of the Army (Financial Management and Comptroller) comments
are responsive.

7. We recommend that the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology) establish procedures to ensure that information provided to
decision makers concerning the economic justification of system acquisitions is
complete and supported in accordance with the Defense Acquisition Guidebook.

Army Comments
The Assistant Secretary of the Army (Financial Management and Comptroller) responded
for the Assistant Secretary of the Army (Acquisition, Logistics, and Technology). The
Assistant Secretary of the Army (Financial Management and Comptroller) disagreed and
stated that the requirements of DoD Instruction 7041.3, “Economic Analysis for
Decisionmaking,” DoD Instruction 5000.02, “Operation of the Defense Acquisition
System,” and DoD 5000.4-M, “Cost Analysis Guidance and Procedures,” are
incorporated in the Defense Acquisition Guidebook to provide detailed guidance on the
preparation of the Cost Analysis Requirements Description. She indicated that the
GFEBS Cost Analysis Requirements Description was prepared in accordance with the
Defense Acquisition Guidebook and reviewed and approved by the appropriate decision
makers. The Assistant Secretary of the Army (Financial Management and Comptroller)
stated that the Army would reaffirm its current procedures to ensure economic
justifications for all systems acquisitions are prepared in accordance with the Defense
Acquisition Guidebook.

Our Response
The Assistant Secretary of the Army (Financial Management and Comptroller)’s
agreement to reaffirm the Army’s current procedures to ensure economic justifications
for all systems acquisitions are prepared in accordance with the Defense Acquisition
Guidebook is responsive to the recommendation. The Army did not prepare the GFEBS
Cost Analysis Requirements Description in accordance with the Defense Acquisition
Guidebook. Specifically, the GFEBS Program Management Office did not fully identify
requirements for the systems impacted by GFEBS. The September 2009 Cost Analysis
Requirements Description did not describe the difference of 24 systems in sufficient

                                           20
detail to understand the reasons for the change. In addition, the September 2009 Cost
Analysis Requirements Description did not comply with the requirement to provide all
the interfaces, upgrades, and operations and support requirements for all systems
impacted by GFEBS. The Defense Acquisition Guidebook provides the acquisition
workforce with best practices that each program should tailor to its needs. The Defense
Acquisition Guidebook states that the Cost Analysis Requirements Description should
stand alone as a readable document, make liberal use of references to the source
documents, and make source documents readily available or provide them as an appendix
to the Cost Analysis Requirements Description. In response to the previous audit, the
Assistant Secretary of the Army (Acquisition, Logistics, and Technology) agreed to
update the Cost Analysis Requirements Description to ensure that all information used in
the document was supported and to identify the interface, upgrade, and operations and
support requirements for all systems with financial management relevance to GFEBS.
No further action is needed.

8. We recommend that the General Fund Enterprise Business System Program
Manager develop complete and supported information for Army’s use in preparing
budget and cost estimates and for managing the General Fund Enterprise Business
System program.

Army Comments
The Assistant Secretary of the Army (Financial Management and Comptroller) responded
for the General Fund Enterprise Business System Program Manager. The Assistant
Secretary of the Army (Financial Management and Comptroller) disagreed and stated that
GFEBS Cost Analysis Requirements Description was prepared in accordance with the
Defense Acquisition Guidebook, and included all development and maintenance
requirements and other information needed to develop an independent cost estimate. She
indicated that the GFEBS Economic Analysis was prepared in accordance with the Army
Economic Analysis Manual of 2001, and was reviewed and approved by required Army
and Office of the Secretary of Defense entities. She stated that the Cost Analysis
Requirements Description and the Economic Analysis provide the information needed to
prepare budgets and cost estimates required to manage the program. The Assistant
Secretary of the Army (Financial Management and Comptroller) indicated that the
completeness and reliability of these documents is supported by the fact that since
establishing the acquisition program baseline in 2008, the cost has remained within all
thresholds and is within two percent of the 2008 baseline. She stated that the Army
would ensure the budget and cost estimates are updated if necessary upon completion of
the data migration concept of operations.

Our Response
The Assistant Secretary of the Army (Financial Management and Comptroller)’s
agreement to ensure the budget and cost estimates are updated if necessary upon
completion of the data migration concept of operations is responsive to the
recommendation. In response to the prior audit, the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) agreed to update the Cost Analysis
Requirements Description to ensure that all information used in the document was

                                          21
supported and to identify the interface, upgrade, and operations and support requirements
for all systems with financial management relevance to GFEBS and to update the
Economic Analysis and ensure it included all source documents, relevant costs, and
system requirements. As stated above, the Cost Analysis Requirements Description did
not fully identify requirements for the systems impacted by GFEBS. In addition, the
updated Economic Analysis did not include the costs related to data migration or for
interfacing systems with GFEBS. Specifically, data migration and brownout costs were
not transparent and properly allocated to GFEBS implementation in the Economic
Analysis and the Army did not provide sufficient detail on system interfacing costs for
the 55 systems that require a GFEBS interface. No further action is needed.




                                           22
Appendix A. Scope and Methodology
We conducted this performance audit from June 2009 through February 2011
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed DoD Inspector General Report No. 2008-041, “Management of the General
Fund Enterprise Business System,” January 14, 2008 to determine the status of the
recommendations. We contacted personnel from USD (AT&L), USD (C)/CFO,
Assistant Secretary of Defense for Networks and Information Integration/Chief
Information Officer, Office of the Deputy Chief Management Officer , ASA (AL&T),
ASA (FM&C), PEO EIS, GFEBS PMO, and DFAS. We requested that they provide
evidence of actions taken to implement the recommendations. We reviewed the evidence
to determine whether management adequately implemented the recommendations from
our prior report.

We reviewed the GFEBS PMO data conversion plans, the CARD, and the EA. We
determined whether the data conversion plans provided sufficient detail to adequately
identify the data conversion processes required for GFEBS implementation. We
analyzed the data presented in the CARD and the EA and determined if the Army
sufficiently supported the documents. We also reviewed the CARD and the EA to
determine compliance with existing guidance. In addition, we reviewed DoD and Army
guidance to determine whether it adequately addressed ERP systems.

Use of Computer-Processed Data
We did not use computer-processed data for the audit of the GFEBS project.

Use of Technical Assistance
The Technical Assessment Directorate, Office of the Deputy Inspector General for Policy
and Oversight, provided technical assistance for this audit. Specifically, the Technical
Assessment Directorate evaluated the results of the ATEC Initial Operational Test and
Evaluation for the GFEBS program.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) issued
one report and the U.S. Army Audit Agency (AAA) issued seven reports discussing the
General Fund Enterprise Business System. Unrestricted DoD IG reports can be accessed
at http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from
.mil and gao.gov domains over the Internet at https://www.aaa.army.mil/.




                                           23
DoD IG
DoD IG Report No. D2008-041, “Management of the General Fund Enterprise Business
System,” January 14, 2008

Army
AAA Report No. A-2009-0226-FFM, “Examination of Federal Financial Management
Improvement Act Compliance - Test Validation General Fund Enterprise Business
System Release 1.2,” September 30, 2009

AAA Report No. A-2009-0231-FFM, “General Fund Enterprise Business System -
Federal Financial Management Improvement Act Compliance Examination of Release
1.3 Functionality,” September 30, 2009

AAA Report No. A-2009-0232-FFM, “General Fund Enterprise Business System -
Federal Financial Management Improvement Act Compliance Examination of Releases
1.4.1, 1.4.2, 1.4.3, and 1.4.4 Requirements,” September 30, 2009

AAA Report No. A-2008-0263-FFM, “General Fund Enterprise Business System -
Federal Financial Management Improvement Act Compliance Examination of Release
1.3 Requirements,” September 29, 2008

AAA Report No. A-2008-0204-FFM, “General Fund Enterprise Business System -
Federal Financial Management Improvement Act Compliance Examination of Release
1.2 Business Process Designs,” August 14, 2008

AAA Report No. A-2007-0217-FFM, “General Fund Enterprise Business System -
Federal Financial Management Improvement Act Compliance Examination of Release
1.2 Requirements,” September 13, 2007

AAA Report No. A-2007-0187-FFM, “General Fund Enterprise Business System -
Federal Financial Management Improvement Act Compliance Examination of Release
1.1 Requirements,” August 9, 2007




                                       24
Appendix B. Recommendation Status
Total Number of    Recommendation        Recommendation                                   Current
Recommendations*   number from                                                            Status
                   prior report
                                         We recommend that the Assistant Secretary
                                         of Defense for Networks and Information
                                         Integration/Chief Information Officer
                                         coordinate with Office of Management and
1                  A.1                   Budget personnel to add the General Fund
                                                                                          Closed
                                         Enterprise Business System program to the
                                         High-Risk Information Technology Projects
                                         list.
                                         We recommend that the Assistant Secretary
                                         of the Army (Financial Management and
                                         Comptroller) withhold funding for systems
2                  A.2.a                 whose owners do not provide the information      Closed
                                         concerning system functionality necessary to
                                         integrate the General Fund Enterprise
                                         Business System.
                                         We recommend that the Assistant Secretary
                                         of the Army (Financial Management and
                                         Comptroller) identify subject matter experts
3                  A.2.b                 for all potential system interfaces and commit
                                                                                          Closed
                                         personnel to the project for the duration of
                                         the project.
                                         We recommend that the Assistant Secretary
                                         of the Army (Financial Management and
                                         Comptroller) prepare a detailed data
4                  A.2.c                 conversion plan within 30 days of completing
                                                                                          Open
                                         the blueprint of the General Fund Enterprise
                                         Business System.
                                         We recommend that the Assistant Secretary
                                         of the Army (Financial Management and
                                         Comptroller) evaluate current timeframes for
5                  A.2.d                 the General Fund Enterprise Business System
                                                                                          Closed
                                         program and adjust to accomplish the actions
                                         in this recommendation.
                                         We recommend that the Under Secretary of
                                         Defense for Acquisition, Technology, and
                                         Logistics establish policy that is consistent
                                         with sections 403 and 437, title 41, United
6                  B.1.a                 States Code, that states if and under what       Open
                                         conditions Research, Development, Test, and
                                         Evaluation funding can be used for
                                         commercial items and services.




                                    25
Total Number of    Recommendation        Recommendation                                   Current
Recommendations*   number from                                                            Status
                   prior report
                                         We recommend that the Under Secretary of
                                         Defense for Acquisition, Technology, and
                                         Logistics discontinue use of blanket purchase
                                         agreements, such as the Enterprise Software
7                  B.1.b                 Initiative, as the contract vehicle for system   Open
                                         integration contracts or task orders exceeding
                                         $25 million that require Research,
                                         Development, Test, and Evaluation funding.

                                         We recommend that the Under Secretary of
                                         Defense for Acquisition, Technology, and
                                         Logistics provide written commercial
                                         determination to justify that the item or
                                         service being procured using General
8                  B.1.c                 Services Administration blanket purchase         Open
                                         agreements meets the Federal Acquisition
                                         Regulation 2.101 definition of a commercial
                                         item for all acquisitions valued at over
                                         $1 million.

                                         We recommend that in the future the Under
                                         Secretary of Defense (Comptroller)/Chief
                                         Financial Officer not provide obligation
                                         authority to programs planning to use the
                                         Enterprise Software Initiative Blanket
9                  B.2                   Purchase Agreement for large and complex
                                                                                          Closed
                                         system implementations until system
                                         requirements are fully defined and approved
                                         and the use of Research, Development, Test,
                                         and Evaluation funding is no longer required.
                                         We recommend that the Director, Program
                                         Executive Office Enterprise Information
10                 B.3                   Systems contact the Defense Contract Audit       Closed
                                         Agency to audit contract line items that are
                                         not fixed-price.
                                         We recommend that the Under Secretary of
                                         Defense for Acquisition, Technology, and
                                         Logistics, the Under Secretary of Defense
                                         (Comptroller)/Chief Financial Officer, and
                                         the Assistant Secretary of the Army
                                         (Acquisition, Logistics, and Technology)
11                 C.1                   make a decision to continue, modify, or
                                                                                          Closed
                                         discontinue the General Fund Enterprise
                                         Business System contracts based on the
                                         results of the updated economic analysis.




                                    26
Total Number of       Recommendation        Recommendation                                   Current
Recommendations*      number from                                                            Status
                      prior report
                                            We recommend that the Assistant Secretary
                                            of the Army (Acquisition, Logistics, and
                                            Technology) develop and implement
                                            procedures to ensure that information
12                    C.2.a                 provided to decision makers concerning the       Open
                                            economic justification of system acquisitions
                                            is complete and supported in accordance with
                                            the Defense Acquisition Guidebook.

                                            We recommend that the Assistant Secretary
                                            of the Army (Acquisition, Logistics, and
                                            Technology) update the cost analysis
                                            requirements description to ensure that
                                            evidential matter supports all information
                                            used in the cost analysis requirements
13                    C.2.b                 description and identify the interface,
                                                                                             Open
                                            upgrade, and operations and support
                                            requirements for all systems with financial
                                            management relevance to the General Fund
                                            Enterprise Business System program.

                                            We recommend that the Assistant Secretary
                                            of the Army (Acquisition, Logistics, and
                                            Technology) update the economic analysis to
                                            ensure that evidential matter supports all
14                    C.2.c                 information used in the economic analysis        Open
                                            and include all relevant costs and system
                                            requirements for each alternative in the
                                            economic analysis.

                                            We recommend that the Assistant Secretary
                                            of the Army (Acquisition, Logistics, and
                                            Technology) retain documentation of the
                                            Under Secretary of the Defense for
15                    C.2.d                 Acquisition, Technology, and Logistics
                                                                                             Closed
                                            review and validation of cost and benefit data
                                            as part of the official program
                                            documentation.
                                            We recommend that the Director, Defense
                                            Finance and Accounting Service, develop
                                            and implement procedures to ensure that
                                            information provided to decision makers
16                    C.3                   concerning the economic justification of
                                                                                             Closed
                                            system acquisitions is complete and
                                            supported in accordance with the Defense
                                            Acquisition Guidebook.
*auditor generated number


                                       27
Under Secretary of Defense (Comptroller) Comments




                   Click to add JPEG file




                                  28
Click to add JPEG file




               29
Deputy Chief Management Officer Comments




                  Click to add JPEG file




                                 30
Click to add JPEG file




               31
Department of the Army Comments




                  Click to add JPEG file




                                 32
Click to add JPEG file




               33
